                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: A05030006                                                                          Page 1 of 1



                 NSF notified us that it had terminated a five-year award (Award 1/ to a university
         (University 1)2 for significant mismanagement. NSF noted specific concerns related to the
         expenditure of a significant portion of the fifth-year increment in the middle of the fourth year; non-
         informative annual reports; payments of stipends to students outside the scope of the award; and the
         physical absence of the project manager (the CoPI) 3 from University 1. The CoPI had primary
         responsibility for the day-to-day management of the award. We initiated an investigation to assess
         the CoPI' s administration of the award for possible fraudulent activity. During the course of this
         investigation, we determined that the CoPI held a joint appointment with another university
         (University 2)4 to manage a similar NSF-funded program (Award 2) 5 under a different NSF
         directorate. NSF terminated Award 2 for lack of progress and mismanagement and withheld the fifth
         year of optional funding. As with Award 1, the CoPI had the primary responsibility for the day-to-
         day management of the award. We expanded our investigation to include Award 2 and identified
         similar concerns.

                Our investigation found evidence of possible violations of civil and criminal fraud statutes
         which we referred to the United States Attorney's Office in University 2's district6 for prosecutorial
         consideration. The matter was declined.

                   Accordingly, this case is Closed.




NSF OIG Form 2 (11/02)
